April 27, 2012

The Honorable Darrell Issa, Chairman
Committee on Oversight and Government Reform
United States House of Representatives
2157 Rayburn House Office Building
Washington, D.C. 20515‐6143

Dear Chairman Issa:

Thank you for your letter of April 4, 2012, requesting that the Government Printing
Office (GPO) Office of Inspector General (OIG) provide information on the status of
open and unimplemented recommendations. Specifically, you requested the following:
(1) the number of open and unimplemented OIG recommendations; (2) estimated cost
savings associated with open and unimplemented recommendations; (3) our three most
important open and unimplemented recommendations; and (4) the number of
recommendations that have been implemented between April 7, 2011, and the present.

Recommendations result from audits, evaluations, investigations, inspections, and other
reviews pursuant to the GPO Inspector General Act of 1988, title II of Public Law 100-
504 (October 18, 1988). Cost savings were based on questioned costs, unsupported
costs, and funds put to better use.

1. Number of Open and Unimplemented Recommendations

As of April 27, 2012, there are a total of 67 open recommendations related to 19 audit or
assessment reports. Thirty six of the 67 open recommendations were made within the
last four months and GPO is working on corrective action plans to address each
recommendation.

2. Open Recommendations with Estimated Cost Savings

As of April 27, 2012, we identified two open recommendations, which were included in
two audit reports. The recommendations carry an estimated monetary benefit or cost
savings totaling $3,339,893. See below for the detailed information on the two
recommendations.
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
April 27, 2012
Page 2 of 4


•   OIG Report: Maintaining Effective Control over Employee Overtime,
    Report No.12-08, March 30, 2012. (Funds Put To Better Use: $2,967,176)

    We recommended modifying Directive 640.7D, “General Pay Administration,” dated
    April 2008, requiring that supervisors obtain approval before asking employees to
    work overtime.

    GPO agreed with the recommendation and is in the process of taking action to close
    the recommendation.

•   OIG Report: Selected Aspects of GPO Time and Attendance and Payroll
    Administration, Report No. 12-01, November 16, 2011. (Funds Put To Better Use:
    $372,717)

    We recommended that GPO modify Directive 640.7D, “General Pay Administration,”
    dated April 2008, to require overtime-authorizing officials ensure that any authorized
    overtime does not exceed the bi-weekly pay cap.

    GPO agreed with the recommendation and is in the process of taking action to close
    the recommendation.
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
April 27, 2012
Page 3 of 4


3. Three Most Important Open and Unimplemented Recommendations

To determine the three most significant open recommendations, keeping in line with the
OIG Strategic Plan, we assessed whether the recommendation would assist GPO’s
transformation to a digital platform or improve program and operational integrity. Using
these criteria, we identified the following three recommendations.

                                      Open Recommendation                               OIG Report

Assist GPO’s         1. Document system security plans and risk assessments in      FY 2011 Independent
                        detail sufficient to plan system security controls for      Auditors’ Report on
Transformation to
                        general support systems and major application that are      the U.S. Government
a Digital Platform      equivalent to the NIST SP 800-53 high-impact baseline       Printing Office’s
                        controls.                                                   FY 2011
                                                                                    Consolidated
                                                                                    Financial Statements,
                                                                                    Report No. 12-02,
                                                                                    December 21, 2011.

Program and          2. Modify GPO Directive 640.7D, “General Pay                   Maintaining Effective
Operational             Administration,” dated April 2008, requiring supervisors    Control over
                        obtain approval before asking employees to work             Employee Overtime,
Integrity               overtime.                                                   Report No. 12-08,
                                                                                    March 30, 2012.

                     3. Modify GPO Directive 640.7D to require overtime-            Selected Aspects of
                        authorizing officials ensure that any authorized overtime   GPO Time and
                        does not exceed the bi-weekly pay cap.                      Attendance and
                                                                                    Payroll Administration,
                                                                                    Report No. 12-01,
                                                                                    November 16, 2011.



4. Number of Recommendations Accepted and Implemented Since April 7, 2011

Lastly, between April 7, 2011, and April 27, 2012, we closed 33 recommendations from
13 audit reports.
The Honorable Darrell Issa, Chairman
House Committee on Oversight and Government Reform
April 27, 2012
Page 4 of 4


We continue to work closely with managers at GPO to improve operations and maintain
a long-standing record of excellence in delivering a world-class service to our Nation.
We appreciate GPO’s responsiveness to our findings and recommendations and its
commitment to prompt corrective actions when needed. We would especially like to
note that Senior Managers are actively engaged in working with the OIG to enhance
awareness of and involvement in closing OIG recommendations.

If you have any questions or need further information, please contact me at
(202) 512‐0039.


Sincerely,




Michael A. Raponi
Inspector General




cc: The Honorable Elijah Cummings, Ranking Member
